Audit Report




OIG-11-033
SAFETY AND SOUNDNESS: Failed Bank Review of The La Coste
National Bank
November 16, 2010




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                              November 16, 2010


             OIG-11-033

             MEMORANDUM FOR JOHN WALSH
                            ACTING COMPTROLLER OF THE CURRENCY

             FROM:                  Jeffrey Dye /s/
                                    Director, Banking Audits

             SUBJECT:               Failed Bank Review of The La Coste National Bank


             This memorandum presents the results of our review of the failure of The La Coste
             National Bank (La Coste). La Coste opened in May 1912 and had one office in
             La Coste, Texas. The Office of the Comptroller of the Currency (OCC) closed
             La Coste and appointed the Federal Deposit Insurance Corporation (FDIC) as
             receiver on February 19, 2010. As of December 31, 2009, the bank had $53.9
             million in total assets. FDIC estimated that the loss to the Deposit Insurance Fund
             is $3.7 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of La Coste that was limited to (1) ascertaining the grounds
             identified by OCC for appointing the FDIC as receiver and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) examined documentation related to the
             appointment of FDIC as receiver and (2) interviewed OCC personnel.

             We conducted this performance audit during August and September 2010 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.


             Cause of La Coste’s Failure
             The primary cause of La Coste’s failure was the elimination of the bank’s capital by
             the write-off of $7.3 million in fictitious investment securities allegedly created by the
OIG-11-033
Page 2

bank’s former President and Chief Executive Officer (CEO) to conceal his approval of
payments made from bank funds on loans and significant overdrafts for a bank
customer. The fictitious nature of the securities was detected by the bank’s external
auditors during the course of their audit work and was subsequently communicated to
OCC. According to OCC personnel we interviewed, La Coste was a very small, one
office bank and possessed unsophisticated operational processes and internal controls.

La Coste’s former CEO was indicted on April 21, 2010, in United States District Court
for the Western District of Texas. He was charged with bank fraud, misapplication of
bank funds by bank employee, false entry in books and records, and aggravated
identity theft. On October 27, 2010, the U.S. Attorney for the Western District of
Texas announced that the former CEO pled guilty to one count of making false entries
in bank books and records, and faces between 3 and 5 years in federal prison and
restitution totaling more than $8 million.


Conclusion
Based on our review of the causes of La Coste’s failure and the grounds identified
by OCC for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the bank’s failure or the supervision exercised by OCC
that would necessitate an in-depth review. Specifically, while there were fictitious
securities involved in the bank’s failure, we determined that a more in-depth review
of the bank’s failure by our office is not warranted because we do not anticipate
discovering any significant new information about the cause of failure or the
supervision exercised over the bank.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated that it agreed with our conclusion as to the causes of
La Coste’s failure and that it had no concerns with our determination that an in-
depth review of the bank’s failure was not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or James
Lisle, Audit Manager, at (202) 927-6345.

Attachments
         OIG-11-033

       Attachment 1
Management Response
                                                   OIG-11-033

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
